August 14, 2020
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543
Re:

Kane County, Utah and the State of Utah v. United States of America, Southern
Utah Wilderness Alliance, and The Wilderness Society, Nos. 20-82 and 20-96

Dear Mr. Harris,
Responses to the petitions for writ of certiorari filed by the State of Utah and Kane
County, Utah and the United States in the above captioned cases are currently due on August 28,
2020 and August 31, 2020, respectively. Pursuant to Rule 30.4 of the rules of this Court,
respondents respectfully request an extension of time to and including October 27, 2020, within
which to file an opposition to the petitions.
This extension is requested to allow counsel for respondents Southern Utah Wilderness
Alliance and The Wilderness Society adequate time to review and respond to both petitions, as
well as to meet deadlines in other pending matters.
Both petitioners in these cases availed themselves of the Court’s March 19, 2020 Order
granting an additional 60 days by which to file their petitions for writ of certiorari. Counsel for
petitioners have indicated that they do not oppose this motion.
Respectfully submitted,

___________________________
Stephen Bloch
Southern Utah Wilderness Alliance
425 East 100 South
Salt Lake City, Utah 84111
(801) 486-3161

{02058320.DOCX /}

Chad Derum
Manning Curtis Bradshaw & Bednar
136 East South Temple, Suite 1300
Salt Lake City, Utah 84111
(801) 363-5678
Cc:

All Counsel

{02058320.DOCX /}

2

